NO.

IN THE
SUPREME COURT OF THE UNITED STATES

NEIL DUSSARD,PETITIONER
vs.
UNITED STATES OF AMERICA,RESPONDENT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The Petitioner asks for leave to file the attached petition for a writ of certiorari without
payment of costs and to proceed in,forma paz~peris.
undersigned counsel was appointed by the United States Court of Appeals for the Second
Circuit pursuant to the Criminal Justice Act, 18 U.S.C. 3006A, as counsel for Petitioner Neil
Dussard for the purpose of pursuing his appeal in the Second Circuit and beyond, as set forth on
the attached Notice of Appointment.
F
~~ \
h'

1,

~,

~.

Date: December 4, 2020
Devin McLaughlin, Esq.
CJA Counsel for Petitioner
Langrock Sperry &Wool, LLP
PO Drawer 351
Middlebury, VT 05753-0351
E-mail: dinclau ~hlin(cr~,lan~rock.com
Ph:(802) 388-6356 ~ Fax:(802) 388-6149

Case 1.8-&

;' Document 11-1., 03130I2~318, 226$:

`', Page1 of ~.

United States Court of Appeals for the Second Circuit
Thurgood Marshall U.S. Courthouse
40 Foley Square
New York, NY 10007
ROBERT A. KATZMANN

CATHERINE O'HAGAN WOLFE

CHIEF NDGE

CLERK OF COURT

Date: March 30, 2018
Docket #: 18-804
Short Title: United States of America v. Knight(Dussard)

DC Docket #: 1:16-cr-673-2
DC Court: SDNY(NEW YORK
CITY)
DC Judge: Daniels

NOTICE of the APPOINTMENT of CJA COUNSEL

This Court has appointed counsel to represent you in your appeal pursuant to the Criminal
Justice Act. Appointed counsel is:

Name: Devin McLaughlin, Esq.
Firm: Langrock Sperry &Wood,LLP
Address: 111 South Pleasant Street, P.O. Drawer 351, Middlebury, VT 05753
Phone No: 802-388-6356
Please see the enclosed copy of this court's order of appointment.
Please direct all future correspondence and other communications to your appointed counsel.
Inquiries regarding this case may be directed to 212-857-8508.

